C@OCKLE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1541

PIVOTAL SOFTWARE, INC., ET AL., PETITIONERS
v.
SUPERIOR COURT OF CALIFORNIA,
CITY AND COUNTY OF SAN FRANCISCO, ET AL.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR PETITIONERS
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 11386 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 16th day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

. GENERAL NOTARY-State of Nebraska &v Ch by
RENEE J. GOSS 9. ( heme :

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 41185
